on

Corraro Rehab. Facility
^
for mailing.

No.

IN THE
SUPREME COURT OF THE UNITED STATES

ERIC LUCAS — PETITIONER
VS.

STATE OF FLORIDA — RESPONDENT

PROOF OF SERVICE
I, Eric Lucas, do so swear or declare that on this date, May
2021 , as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PRUPERIS and PETITION FOR A WRIT OF
CERTIORARI, on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or delivered to a third-party commercial carrier for
the delivery within 3 calendar days. The names and addresses of those served are
as follows: Clerk of Court, US Supreme Court, 1 First St. NE, Washington, DC
20543; Solicitor General of the United States, Room 5616, Department of Justice,
950 Pennsylvania Ave., NW, Washington, DC 20530-0001; Office of the Attorney
General, 1515 North Flagler Drive, Suite 900, West Palm Beach, FL. 33401. I
declare under penalty of perjury that the foregoing is true and correct. Executed on
May .13 2021.
^ ^
\/)
/s/
Eric Lucas #W(r734f3
South Bay Corr. & Rehab. Facility
PO Box 7171
South Bay, FL 33493

Received
JUN - 8 2021

